Inspection Report No. OIG-INS-4-00-01: Review of NLRB's Compliance with the Federal Managers' Financial Integrity Act of 1982
Inspection Report No. OIG-INS-4-00-01 Review of NLRB's Compliance with the Federal Managers' Financial Integrity Act of 1982
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
December 21, 1999
To: John C. Truesdale, Chairman
Leonard R. Page, General Counsel
From: Jane E. Altenhofen, Inspector General
Subject: Inspection Report No. OIG-INS-4-00-01: Review of NLRB's
Compliance with the Federal Managers' Financial Integrity Act of 1982
The Federal Managers' Financial Integrity Act of 1982 (the Act or FMFIA)
requires executive agencies to establish internal accounting and
administrative controls in accordance with the Comptroller General's
standards and related requirements. The Act further requires that agency
heads submit an annual statement to the President and the Congress on the
adequacy of internal controls and actions taken to correct weaknesses
identified. At the National Labor Relations Board (NLRB or Agency) the
Chairman and General Counsel both sign the assurance statement.
The Inspector General is to report annually to the head of the Agency
on the adequacy of the Agency's review of internal controls. This review
covered the fiscal year ended September 30, 1999. We reviewed the Agency's
compliance with: the Act; Office of Management and Budget (OMB) Circular
A-123, Management Accountability and Control; and OMB Circular A-127,
Financial Management Systems. We reviewed letters of assurance submitted
by Agency officials, results of evaluations performed by financial system
managers, a draft report from the Director of Administration to the
Chairman and General Counsel outlining the Agency's review process, and
the draft assurance statement from the Chairman and General Counsel to the
President. We also interviewed the Management Control Planning Committee (MCPC)
Chairman, MCPC Coordinator, and managers with FMFIA evaluation and
reporting responsibilities representing the Board, program offices of the
General Counsel, and the Division of Administration.
We found that the evaluation of the system of internal accounting and
administrative control had been carried out in a reasonable and prudent
manner for the year ended September 30, 1999. During the review, nothing
came to our attention that would indicate that the Board did not
substantially comply with the above mentioned guidelines.
The draft assurance statement identified no material weaknesses or
material nonconformances for fiscal year 1999. The draft report from the
Director of Administration identified no deficiencies (material
weaknesses) but noted that several designated managers referenced Office
of Inspector General findings regarding time and attendance and the Case
Activity Tracking System. The draft report also referenced an Office of
Personnel Management review issued in July 1999 that contains six required
actions which the Agency must take to be in compliance with statutory
Merit System Principles and governmentwide regulations. We agree with
these conclusions.
We also identified two actions management should take to better
implement the requirements of Circular A-127.
OMB Circular A-127 requires agencies to prepare annual financial
management plans in accordance with guidance issued annually by OMB.
The circular states that agencies not covered by the Chief Financial
Officers (CFO) Act shall prepare plans following the CFO Financial
Management 5-Year Plan guidance, but are not required to submit the
plans to OMB. The Agency did not prepare this plan due to an
administrative oversight. Representatives of the Financial Planning
Committee (FPC) agreed to develop the 5-year plan.
OMB Circular A-127 identifies financial management system
requirements that should be reflected in the design structure. The
review methodology used by Agency systems managers does not document
consideration of each of these requirements because the Agency did
not update the review methodology when OMB Circular A-127 was
revised on July 23, 1993. The Deputy Director of Administration, who
serves as the Chairman of both the FPC and the MCPC, said that the
FPC would revise the methodology used by systems managers to review
financial systems.
The Deputy Director of Administration reviewed a draft of this report,
agreed with our conclusions, and incorporated one suggestion we made into
a revised draft report from the Director of Administration.
This review was done in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.
cc: Director of Administration
Chairman, MCPC